                            Office of Inspector General
                           Corporation for National and
                                    Community Service




             AUDIT OF THE
    CORPORATION FOR NATIONAL AND
         COMMUNITY SERVICE’S
FISCAL YEAR 2004 FINANCIAL STATEMENTS

          Audit Report Number 05-01
               October 29, 2004




                       Prepared by:

               COTTON & COMPANY LLP
            333 North Fairfax Street, Suite 401
                Alexandria, Virginia 22314




 This report was issued to Corporation management on November 12, 2004.
 Under the laws and regulations governing audit follow up, the Corporation is to
 make final management decisions on the report’s findings and
 recommendations no later than May 12, 2005, and complete its corrective
 actions by November 12, 2005. Consequently, the reported findings do not
 necessarily represent the final resolution of the issues presented.
                           Office of Inspector General Summary
              Audit of the Corporation for National and Community Service's
                           Fiscal Year 2004 Financial Statements
                                     Audit Report 05-01


In accordance with the Government Corporation Control Act (3 1 U.S.C. $4 9101-lo), the Office
of Inspector General (OIG) engaged Cotton and Company LLP to audit the Corporation for
National and Community Service's fiscal year 2004 financial statements. This report presents the
results of the audit. In summary:

            Cotton and Company's opinion on the financial statements is unqualified.
            An unqualified opinion means that the financial statements present fairly, in
            all material respects, the financial position and results of operations of the
            Corporation.

            Cotton and Company considered certain matters involving the internal
            control over financial reporting and its operations to be a reportable
            condition. For the fourth consecutive year, the Corporation's monitoring of
            grantee activities is considered to be a reportable condition. However,
            Cotton and Company does not consider this reportable condition, more
            specifically described in Exhibit 1, to be a material weakness.

            Cotton and Company found no instances of material noncompliance with
            laws and regulations that would have a direct and material effect on the
            financial statements.

We provided a draft of this report to Corporation management for review and comment. The
Corporation's response indicates that the clean opinion received reflects the continued hard work
over the past two years to improve the Corporation's operations and regain the trust of Congress.
The Corporation recognizes that grant monitoring must be improved, and has created a new
position, Director of Grants Oversight and Monitoring, to manage grant monitoring across
programs. The Corporation's response is presented in its entirety as Appendix A.




                    1201 New York Avenue, NW, Suite 830 * Washington. DC 20525
                       202-606-5000 * Hot line 800-452-82 10 + www.cncsig.gov                 USAS  =
                                                                                              Freedom Corps
                        Senior Corps   *   AmcriCorps   * Learn and Serve America
Inspector General
Board of Directors
Corporation for National and Community Service




We have audited the accompanying Statements of Financial Position of the Corporation for National and
Community Service (Corporation) as of September 30,2004, and September 30, 2003, and the related
Statements of Operations and Changes in Net Position, Budgetary Resources, and Cash Flows for the
years ended September 30,2004, and September 30, 2003. These financial statements are the
responsibility of Corporation management. Our responsibility is to express an opinion on these financial
statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and standards applicable to financial statement audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States. Those standards require that we plan
and perform the audit to obtain reasonable assurance that the financial statements are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting amounts and disclosures
in the financial statements. An audit also includes assessing accounting principles used and significant
estimates made by management, as well as evaluating overall financial statement presentation. We
believe that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Corporation at September 30,2004, and September 30, 2003, and the results of
its operations and changes in its net position, budgetary resources, and cash flows for the years ended
September 30,2004, and September 30,2003, in conformity with accounting principles generally
accepted in the United States of America.

In accordance with Governnzent Auditing Standards, we have also issued our reports dated October 29,
2004, on our consideration of the Corporation's internal control over financial reporting and on our tests
of its compliance with provisions of laws and regulations. Our reports on internal control and compliance
are an integral part of an audit conducted in accordance with Government Auditing Standards and, in
considering the results of our audit, those reports should be read together with this report.


COTTON & COMPANY LLP



Alan Rosenthal, CPA
Partner


October 29, 2004
Alexandria, Virginia
                     Corporation for National and Community Service
                            Statements of Financial Position
                                   As of September 30
                                            (dollars in thousands)

                                                                          2004                2003
ASSETS
  Fund Balance with Treasury (Note 2)                                $    854,370         $   743,363
  Trust Investments and Related Receivables (Note 3)                      337,913             23 1,880
  Advances to Others                                                       66,154              49,279
  Accounts Receivable, Net (Note 4)                                         2,636               2,756
  Property and Equipment, Net (Note 5)
       Total Assets


LIABILITIES
  Trust Service Award Liability (Note 6)
  Grants Payable
  Accounts Payable
  Actuarial FECA Liability (Note 8)
  Other Liabilities
  Accrued Annual Leave
  Advances from Others
  Capital Lease Liability (Note 7)
       Total Liabilities

Commitments and Contingencies (Notes 7 and 14)

NET POSITION
  Unexpended Appropriations
   Obligated
     Unobligated
   Cumulative Results of Operations
      Total Net Position (Note 9)


       Total Liabilities and Net Position




             The accompanying notes are an integral part of these financial statements.
                    Corporation for National and Community Service
                  Statements of Operations and Changes in Net Position
                          For the Years Ended September 30
                                         (dollars in thousands)

                                                                          2004                 2003
REVENUES
  Appropriated Capital Used, excluding Trust Fund                   $     644,171         $   768,005
  Appropriations Received by the Trust Fund (note 10)                     205,389              99,350
  Interest                                                                  8,873               9,693
  Revenue from Services Provided                                            7,329               7,288
  Other
       Total Revenues


EXPENSES
  AmeriCorps
  National Senior Service Corps
  Learn and Serve America
       Subtotal
  Congressionally Earmarked Grants
  DVSA State Grants
  Office of Inspector General
      Total Expenses (Note 11)


NET OF REVENUES OVER EXPENSES                                       $     101,971         $     (2,014)

NET POSITION
  Net of Revenues over Expenses                                     $     101,971         $      (2,014)
  Change in Unexpended Appropriations, Net (Note 13)                      123,702             ( 142,026)
  Change in Net Position, Net                                             225,673             ( 144,040)
  Net Position, Beginning Balance                                         648,387              792,427
  Net Position, Ending Balance                                      $     874,060         $    648,387




             The accompanying notes are an integral part of these financial statements.
                     Corporation for National a n d Community Service
                           Statement of Budgetary Resources
                           F o r the Years Ended September 30
                                          (dollars in thousands)
BUDGETARY RESOURCES
  Budget Authority
  Appropriations Received, including Trust Fund
  Net Transfers
  Total Budgetary Resources

   Unobligated Balance
   Beginning of Period
   Net Transfers
       Subtotal

   Spending Authority From Offsetting Collections
   Collected
   Receivable from Federal Sources
   Advances Received
   Without Advance from Federal Source
   Anticipated for Rest of Year Without Advance
       Subtotal

   Recoveries of Prior Year Obligations
   Actual
   Anticipated
       Subtotal

   Temporarily Not Available Pursuant to Public Law

   Permanently Not Available
   Cancellations of Expired and No-Year Accounts
   Enacted Rescissions
       Subtotal

   Total Budgetary Resources

STATUS OF BUDGETARY RESOURCES
  Obligations Incurred

   Unobligated Balance:
   Balance, Currently Available
   Exempt from Apportionment
       Subtotal

   Unobligated Balance Not Available

   Total Status of Budgetary Resources                                                 $ i,332,320

                                                                                           (continued)
              The accompanying notes are an integral part of these financial statements.
                      Corporation for National and Community Sewice
                            Statement of Budgetary Resources
                            For the Years Ended September 30
                                          (dollars in thousands)

                                                                         2004
RELATIONSHIP OF OBLIGATIONS TO OUTLAYS
  Obligated Balance, Net, Beginning of Period                      $    629,155

  Obligated Balance Transferred                                                 -

  Obligated Balance, Net, End of Period
  Accounts Receivable
  Unfilled Customer Orders from Federal Sources
  Undelivered Orders
  Accounts Payable
      Obligated Balance, Net, End of Period Total

  Obligations Total


  Outlays:
  Disbursements
  Collections
      Subtotal

  Less: Offsetting Receipts

   Net Outlays




              The accompanying notes are an integral part of these financial statements.
                           Corporation for National and Community Sewice
                                       Statement of Cash Flows
                               For the Year Ended September 30,2004
                                               (dollars in thousands)



CASH FLOWS FROM OPERATING ACTIVITIES

Net of Revenues over Expenses

Adjustments Affecting Cash Flow:
 Appropriated Capital Used, excluding Trust Fund
 Appropriations Received by the Trust
 Decrease in Accounts Receivable
 Increase in Interest Receivable
 Increase in Advances


 Increase in Accounts Payable, Other Liabilities and
   Advances from Others
 Decrease in FECA and Annual Leave Liabilities
 Increase in Capital Lease Liability
 Increase in Trust Liability
 Increase in Grants Payable


  Amortization of Premium/Discount on Investments
  Depreciation, Amortization, and Loss on
    Disposition of Assets
  Prior Year Expenses as authorized by P.L. 108-1 1


Total Adjustments

Net Cash Used by Operating Activities


                                                                                                (continued)




                    The accompanying notes are un integral part of theseJinancia1 statements.
                          Corporation for National and Community Service
                                      Statement of Cash Flows
                              For the Year Ended September 30,2004
                                              (dollars in thousands)



CASH FLOWS FROM INVESTING ACTIVITIES

Purchase of Property and Equipment
Sales of Securities
Purchase of Securities
Net Cash Provided by Investing Activities


CASH FLOWS FROM FINANCING ACTIVITIES

Appropriations Received
Canceled/Rescinded Appropriations
Net Cash Provided by Financing Activities

Net Cash Provided by Operating, Investing, and Financing Activities

Fund Balance with Treasury, Beginning

Fund Balance with Treasury, Ending



Supplemental Disclosure of Cash Flow Information

  Interest Paid

Supplemental Schedule of Financing and Investing Activities

  Property and Equipment Acquired Under Capital Lease Obligations




                   The accoinpanying notes are an integral part of these$nancial statements.
                           Corporation for National and Community Sewice
                                       Statement of Cash Flows
                               For the Year Ended September 30,2003
                                                (dollars in tlrousands)



CASH FLOWS FROM OPERATING ACTIVITIES

Net of Revenues over Expenses

Adjustments Affecting Cash Flow:
 Appropriated Capital Used, excluding Trust Fund
 Appropriations Received by the Trust
 Decrease in Accounts Receivable
 Increase in Interest Receivable
 Decrease in Advances


 Increase in Accounts Payable, Other Liabilities and
   Advances from Others
 Increase in FECA and Annual Leave Liabilities
 Decrease in Commission Liability
 Decrease in Capital Lease Liability
 Decrease in Trust Liability
 Increase in Grants Payable


  Amortization of Premium/Discount on Investments
  Depreciation, Amortization, and Loss on
    Disposition of Assets


Total Adjustments

Net Cash Used by Operating Activities                                                            $   (826,385)


                                                                                                     (continued)




                    The accompanying notes are an integral part of these financial statements.
                          Corporation for National and Community Service
                                      Statement of Cash Flows
                              For the Year Ended September 30,2003
                                               (dollars in thousands)




CASH FLOWS FROM INVESTING ACTIVITIES

Purchase of Property and Equipment
Sales of Securities
Purchase of Securities
Net Cash Provided by Investing Activities


CASH FLOWS FROM FINANCING ACTIVITIES

Appropriations Received
CanceledIRescinded Appropriations
Net Cash Provided by Financing Activities

Net Cash Provided by Operating, Investing, and Financing Activities

Fund Balance with Treasury, Beginning

Fund Balance with Treasury, Ending



Supplemental Disclosure of Cash Flow Information

  Interest Paid

Supplemental Schedule of Financing and Investing Activities

  Property and Equipment Acquired Under Capital Lease Obligations




                   The accompanying notes are an integral part of these financial statements.
NOTES TO THE FINANCIAL STATEMENTS
NOTE I - SUMMA R Y OF SIGNIFICANT ACCOUNTING POLICIES
A. Basis of Presentation
These financial statements have been prepared to report the financial position, results of operations, and cash flows
of the Corporation for National and Community Service (Corporation), as required by the Government Corporation
Control Act (3 1 USC 9106) and by the National and Community Service Act of 1990, as amended (42 USC 1265 1)
In addition, the Corporation prepares a Statement of Budgetary Resources, which reports on the status of
appropriated funds, as one of its principal financial statements as required by the President's February 27, 2004
Executive Order on National and Community Service Programs. These financial statements have been prepared
from the books and records of the Corporation. The Statements of Financial Position, Operations and Changes in
Net Position, Statement of Budgetary Resources, and Cash Flows have been prepared in accordance with accounting
principles generally accepted in the United States of America (GAAP) as applicable to Federal governmental entities
and include the Corporation's activities related to providing grants and education awards to eligible participants.
Additionally, the Statement of Budgetary Resources has been prepared in accordance with guidance prescribed in
Office of Management and Budget (OMB) Memorandum 01-09, Form and Content ofAgency Financial Statements,
which constitutes generally accepted accounting principles for Federal governmental entities as specified by the
AICPA's Statement on Auditing Standards 69 (as amended), The Meaning of Presents Fairly in Conformity With
Generally Accepted Accounting Principles. The Corporation is not subject to income tax.

The principal financial statements of the Corporation are the:

         Statement of Financial Position;
         Statement of Operations and Changes in Net Position;
         Statement of Budgetary Resources; and
         Statement of Cash Flows.

The notes to the financial statements are considered an integral part of the financial statements.

B. Reporting Entity

The Corporation was created by the National and Community Service Trust Act of 1993 (Public Law 103-82,42
USC 1265 1). The Corporation provides grants and other incentives to States, local municipalities, and not-for-profit
organizations to help communities meet critical challenges in the areas of education, public safety, human needs,
and the environment through volunteer service. The Corporation oversees three national service initiatives:

         AmeriCorps is the national service program that annually engages Americans of all ages and backgrounds
         in full-time and sustained part-time community service and provides education awards in return for such
         service. AmeriCorps includes State, National, Tribes & Territories (Staternational); National Civilian
         C o m m u n i ~Corps (NCCC); and Volunteers In Service To America (VISTA) programs.

         The National Senior Service Corps is a network of people age 55 and older who participate in the Foster
         Grandparent Program, the Senior Companion Program, and the Retired and Senior Volunteer Program.
         These programs tap the experience, skills, talents, and creativity of America's seniors.

         Learn and Serve America supports and promotes service learning in schools. universities, and
         communities. Through structured service activities that help meet community needs, nearly one million
         students improve their academic learning, develop personal skills, and practice responsible citizenship.

Together, these initiatives promote the ethic of service and help solve critical community problems in every State,
many Indian tribes, and most U.S. territories.

C. Budgets and Budgetary Accounting

The activities of the Corporation are primarily funded through two separate appropriation bills. One is the
LaborIHealth and Human Services bill, which funds Domestic Volunteer Service Act (DVSA) programs. The
DVSA appropriation is available for obligation by the Corporation for one fiscal year only.
The second is the Veterans Affairs, Housing and Urban Development, and Independent Agencies bill, which funds
National and Community Service Act (NCSA) programs. The NCSA appropriation is available for obligation by the
Corporation over two fiscal years except for the Salary and Expense ( W E ) , which is available for one year.
Both the DVSA and the NCSA appropriations fund a part of the Corporation's costs for administrative operations.
In addition, part of the NCSA appropriations are provided on a no-year basis for the National Service Trust (the
Trust), a fund within the Corporation primarily used to provide education awards to eligible participants. The Trust
provides awards for AmeriCorps members under AmeriCorps*State and National, Tribes and Territories,
AmeriCorps*NCCC, and AmeriCorps*VISTA.

D. Basis of Accounting

Transactions are recorded in the accounting system on an accrual basis and a budgetary basis. Under the accrual
method of accounting, revenues are recognized when earned and expenses are recognized when a liability is
incurred, without regard to receipt or payment of cash. Appropriations are considered earned for the Corporation's
National Service Trust Fund and are recognized as revenue when received in the Trust Fund.

The recognition of budgetary accounting transactions is essential for compliance with legal constraints and controls
over the use of Federal funds. Budgetary accounting principles are designed to recognize the obligation of funds
according to legal requirements, which in many cases is prior to the occurrence of an accrual-based transaction.
Thus, the Statements of Financial Position, Operations and Changes in Net Position, and Cash Flows differ from the
Statement of Budgetary Resources and other financial reports submitted pursuant to OMB directives for the purpose
of providing information on how budgetary resources were made available and monitoring and controlling the use of
the Corporation's budgetary resources.

E. Fund Balance with Treasury

The Corporation does not maintain cash in commercial bank accounts. Cash receipts and disbursements are
processed by the U.S. Treasury. The Fund Balance with Treasury represents annual, multi-year, and no-year funds,
which are maintained in appropriated and trust funds that are available to pay current and future commitments.

Funds maintained in the National Service Trust are restricted for use in paying service awards eamed by eligible
participants as well as interest forbearance, and are not available for use in the current operations of the Corporation.

The majority of the funds received from individuals and organizations in the form of gifts and donations for the
support of service projects are restricted for a particular use.

F. Trust Investments and Related Receivables

By law, the Corporation invests funds, which have been transferred to the Trust, only in interest-bearing Treasury
obligations of the United States. These Treasury obligations are referred to as market-based specials, which are
similar to government securities sold on the open market, and consist of Treasury notes, bonds, bills and one-day
certificates.

The Corporation classifies these investments as held-to-maturity at the time of purchase and periodically reevaluates
such classification. Securities are classified as held-to-maturity when the Corporation has the positive intent and
ability to hold securities to maturity. Held-to-maturity securities are stated at cost with corresponding premiums or
discounts amortized over the life of the investment to interest income. Premiums and discounts are amortized using
the effective interest method.

Interest receivable represents amounts earned but not received on investments held at year-end. Prepaid interest is
the amount of interest earned on a security since the date of its last interest payment up to the date the security is
purchased by the Corporation. Such interest, if any, at year-end is included in the interest receivable balance.

G . Advances to Others

The Corporation advances funds, primarily in response to grantee drawdown requests, to facilitate their authorized
national and community service and domestic volunteer service activities. The cash payments to grantees, in excess
of amounts eamed under the terms of the grant agreements. are accounted for as advances. At the end of the fiscal
year, the total amount advanced to grantees is compared with the Corporation-funded amount earned by the
grantees. Grantee expenses are determined from reports submitted by the grantees. For those grantees with
advances exceeding expenses, the aggregate difference is reported as the advance account balance.

H. Accounts Receivable

Accounts receivable represents amounts due to the Corporation primarily under Federal and non-Federal reimbursable
agreements, grantee audit resolution determinations, and outstanding travel advances due from employees. These amounts
are reduced by an allowance for uncollectible accounts based on the age of each past due account.

I.   Property and Equipment

The Corporation capitalizes property and equipment at historical cost for acquisitions of $10 thousand or more, with
an estimated useful life that extends beyond the year of acquisition. The assets reported include telephone
equipment, computer systems equipment, copiers, computer software, furniture, and assets under capital leases.
These assets are depreciated (or amortized) on a straight-line basis over estimated useful lives ranging from two to
I0 years, using the half-year convention. Normal maintenance and repair costs on capitalized property and
equipment are expensed when incurred.

J.   Trust Service Award Liability
The Trust service award liability represents unpaid earned, and expected to be earned, education awards and eligible
interest forbearance costs, which are expected to be used. These amounts relate to participants who have completed
service or are currently enrolled in the program and are expected to earn an award, based on the Corporation's
historical experience.

K. Grants Payable
Grants are made to nonprofit organizations, educational institutions, states, municipalities, and other external
organizations. Grants become budgetary obligations, but not liabilities, when they are awarded. At the end of each
fiscal year, the Corporation reports the total amount of unreimbursed authorized grantee expenses, earned under the
terms of grant agreements, as grants payable.

L. Accounts Payable

The Corporation records as liabilities all amounts that are likely to be paid as a direct result of a transaction or event
that has already occurred. Accounts payable represents amounts due to both Federal and non-Federal entities for
goods and services received by the Corporation, but not paid for at the end of the fiscal year.

M. Actuarial FECA Liability
The Federal Employees' Compensation Act (FECA) provides income and medical cost protection to covered
Federal civilian employees injured on the job, employees who have incurred a work-related occupational disease,
and beneficiaries of employees whose death is attributable to a job-related injury or occupational disease. Claims
incurred for benefits for Corporation employees under FECA are administered by the Department of Labor (DOL)
and later billed to the Corporation. The Corporation's actuarial liability for workers' compensation includes costs
incurred but unbilled as of year-end, as calculated by DOL, and is not funded by current appropriations.

N. Other Liabilities

Other liabilities include amounts owed but not paid at the end of the fiscal year for payroll and benefits; VISTA
stipends; and the portion of the liability for Federal Employees' Compensation Act charges incurred and billed but
unpaid.

0. Accrued Annual Leave

Annual leave is accrued as a liability based on amounts earned but not used as of the fiscal year-end. Each year, the
balance in the accrued annual leave account is adjusted to reflect current year pay rates and leave balances. Annual
leave is funded from current appropriations when used. As unused annual leave is used in the future, financing will
be obtained from appropriations current at that time. Sick leave and other types of non-vested leave are expensed
when used.

P. Advances from Others

Advances from others consist of advances from other government agencies related to interagency agreements the
Corporation entered into to provide services to those agencies.

Q. Net Position

Net position is composed of unexpended appropriations and cumulative results of operations. Unexpended
appropriations are funds appropriated and warranted to the Corporation that are still available for expenditure as of
the end of the fiscal year. Cumulative results of operations represent the net differences between revenues and
expenses from the inception of the Corporation.

R. Revenues

     Appropriated Capital Used

The Corporation obtains funding for its program and operating expenses through annual and multi-year
appropriations. Appropriations are recognized on an accrual basis at the time they are used to pay program or
administrative expenses, except for expenses to be funded by future appropriations such as earned but unused annual
leave. Appropriations expended for property and equipment are recognized as used when the property is purchased.
Funds not used for eligible expenses within the allowed time must be returned to Treasury. Appropriations received
for the Corporation's Trust are recognized as revenue when received in the Trust Fund. Trust appropriations do not
expire with the passage of time and are retained by the Corporation in the Trust until used for eligible education
service award purposes.

     Interest

lnterest income is recognized when earned. Treasury notes and bonds pay interest semiannually, based on the stated
rate of interest. Interest earned on Treasury bills is recognized at maturity. lnterest income is adjusted by
amortization of premiums and discounts using the effective interest method.

     Revenue from Services Provided

The Corporation also receives income from reimbursable service agreements that is recorded as revenue from
services provided. Revenue from services provided is recognized when earned, i.e., goods have been delivered or
services rendered.

     Other Revenzre

Other revenue consists of gifts and donations for the support of service projects from individuals and organizations.

S.   Retirement Benefits

The Corporation's employees participate in either the Civil Service Retirement System (CSRS) or the Federal
Employees Retirement System (FERS). FERS was established by the enactment of Public Law 99-335. Pursuant to
this law, FERS and Social Security automatically cover most employees hired after December 3 1, 1983. Employees
hired prior to January 1, 1984, elected to join FERS and Social Security or remained in the CSRS.

For employees covered by CSRS, the Corporation contributes 8.5 1 percent of their gross pay towards retirement.
For those employees covered by FERS, the Corporation contributes 11S O percent of their gross pay towards
retirement. Employees are allowed to participate in the Federal Thrift Savings Plan (TSP). For employees under
FERS, the Corporation contributes an automatic one percent of basic pay to TSP and matches employee
contributions up to an additional 4 percent of pay, for a maximum Corporation contribution amounting to 5 percent
of pay. Employees under CSRS may participate in the TSP, but will not receive either the Corporation's automatic
or matching contributions.
The Corporation made retirement contributions of $791 thousand and $668 thousand to the CSRS Plan, and $5.72
million and $6.09 million to the FERS and TSP Plans in fiscal years 2004 and 2003, respectively.

T. Use of Estimates

The preparation of financial statements requires management to make estimates and assumptions that affect the
reported amounts of assets and liabilities, the disclosure of contingent assets and liabilities at the date of the financial
statements, and the reported amounts of revenues and expenses during the reporting period. Actual results could
differ from these estimates.

NOTE 2 - FUND BALANCE WITH TREASURY
U.S. Government cash is accounted for on an overall consolidated basis by the U.S. Department of Treasury. The
Fund Balance with Treasury line on the Statement of Financial Position consists of the following:
            Appropriated Funds - Appropriated funds are received through congressional appropriations to provide
            financing sources for the Corporation's programs on an annual, multi-year, and no-year basis. The f h d s
            are warranted by the United States Treasury and apportioned by the Office of Management and Budget.
            Trust Funds -Trust Funds are accounts designated by law for receipts earmarked for specific purposes
            and for the expenditure of these receipts. Funds fiom the Corporation's Trust Fund may be expended for
            the purpose of providing an education award or interest forbearance payment and must always be paid
            directly to a qualified institution (college. university, or other approved educational institution, or a lending
            institution holding an existing student loan) as designated by the participant, as well as awards under the
            President's Freedom Scholarship Program.
            Gift Funds - Gift Funds are funds received fiom individuals and organizations as donations in furtherance
            of the purposes of the national service laws.

                                      Fund Balance with Treasury as of September 30
                                                     (dollars in tlzousands)



            Type                 Unrestricted     Restricted       Total            Unrestricted      Restricted      Total
    Appropriated Funds             $850,437          $    -        $850,437           $742,565             $ -       $742,565

I   Trust Funds
    Gift Funds
I Total                             $850.443$3.927$854.370                             $742.58Q                     $743.3631


NOTE 3 - TRUSTINVESTMENTS AND RELATED RECEIVABLES
The composition of Trust Investments and Related Receivables at September 30 is as follows:

                      Trust Investments and Related Receivables as of September 3 0
                                              (dollars in tlrousands)
                                                                                 2004                  2003
    Investments, Carrying Value                                                $334,575              $230,262
    Investment and Interest Receivable                                            3,338                  1,618
    Total                                                                      $337.913              $231.880
                         Amortized Cost and Fair Value of Investment Securities as of September 30
                                                  (dollars in thousands)
                 2004                                                2003
                 Amortized      Unrealized     Unrealized      Fair       Amortized      Unrealized       Unrealized        Fair
    Securities     Cost           Gains         (Losses)      Value         Cost           Gains           (Losses)        Value
    Notes         $292,655           $ 27         $      -   $292,682      $175,244          $5,648           $   -       $180,892
    Bills           34,274              68                     34,342        47,019               4               -         47,023
    Bonds            7,646             198                      7,844         7,999             570               -          8,569
    Total          $334.575           $2e3$-$334.868-                                         $6.222          $- $236.484

At September 30, 2004, the notes held at year-end had an interest rate range of 1.63% to 7.88% and an outstanding
maturity period of approximately one day to five years. The interest rate on the bond was 10.75% and had a
maturity period of approximately one year. The bills held at year-end had an interest rate range of 1.35% to 1.77%
and were all due to mature within 149 days. The par values of these bills range from $2 million to $5 million.

As required by the Strengthen AmeriCorps Program Act, beginning in fiscal 2003 the Corporation has set aside in
reserve a portion of the funds appropriated to the Trust in the event that its estimates used to calculate obligational
amounts for education awards prove to be too low. As of September 30, 2004, $19.9 million of the Corporation's
investment account has been set aside for this reserve.

Investments held at September 30 mature according to the following schedule:

                               Maturation of Securities Held as of September 30
                                            (dollars in tltousanrls)
                                                      2004                                 2003
I                                        Amortized           Fair              Amortized               Fair       I
     Held-to-Maturity Securities           Cost              Value               Cost                 Value
    Due in 1 year or less                  $161,584          $161,931             $156,108             $157,360
    Due after 1 year up to 5 years          172,99 1          172,937                74,154              79,124
    Total                                     $334.575       %334.868               $230.262           $236.484



NOTE 4 -ACCOUNTS RECEIVABLE, NET
I                                                                                                         1

                               Accounts Receivable as of September 30
                                        (dollars in Ihousands)
                                                                            2004                  2003
    Accounts receivable                                                    $3,284                $3,248
    Less: allowance for loss on receivables                                   648                   492
    Accounts Receivable, Net                                               $2.636               $2.756
NOTE 5 -PROPERTY AND EQUIPMENT, NET

                             General Property and Equipment as of September 30
                                            (dollars in thousands)
                                            2004                                         2003
                   Service                  Less:             Net                        Less:           Net
                     Life                Accumulated         Book                     Accumulated       Book
  Major Class      (Years)        Cost   Depreciation        Value          Cost      Depreciation      Value
 Equipment          3- 10        $2,9 16       $2,0 17         $899         $1,998          $1,676        $322
 capital leases      3-5             92            29             63           164             123           41
 ADP software         2           5,042         5,042              0         5,042           4,6 19        42 3
 Total                           $8.050           $7.088        $e62        $7.204           $6.418          $286




NOTE 6-SERVICE AWARD LIABILITY- NATIONAL SERVICE TRUST
Individuals who successfully complete terms of service in AmeriCorps programs earn education awards, which can
be used to make payments on qualified student loans or for educational expenses at qualified educational
institutions. The awards, which are available for use for a period of up to seven years after the benefit has been
earned, are paid from the National Service Trust. The Trust also pays forbearance interest on qualified student
loans during the period members perform community service as well as awards under the President's Freedom
Scholarship Program. The award liability components related to education awards and interest forbearance have
been adjusted, based on historical experience, to reflect the fact that some eligible participants may not use these
benefits. The service award liability was composed of the following as of September 30:


                               Service Award Liability as of September 30
                                         (dollars in thousands)
                                                                              2004                  2003
 Education awards                                                          $814,176              $707,9 19
 Interest forbearance                                                        26,957                24,371
 Presidential Freedom Scholarship Program                                    17,499                 14,200
 Total estimated service award liability                                    858,632               746,490
 Less: cumulative awards paid                                               621,135               5 15,868
 Total                                                                     $237.497              $230.622

The net service award liability as of September 30, 2004, increased by approximately $6.87 million from the net
service award liability as of September 30, 2003. This change was largely due to new member enrollments and an
increase in the number of members still serving during the year.
NOTE 7 - CAPITAL AND OPERA TINC LEASES
A. Capital Leases
The Corporation has entered into lease agreements for copy machines. These leases vary from 3 to 5 year terms and
are deemed to be capital leases. The costs of the copiers have been recorded as property and equipment (also see
Note 5). The following is a schedule by year of the future minimum payments under these leases:

                         Capital Leases Future Minimum Due as of September 30
                                          (dollars in tlrousands)
                                                                          2004                      2003
    Fiscal Year 2004                                                              $-                 $ 13
    Fiscal Year 2005                                                              26                   12
    Fiscal Year 2006                                                              25                   II
    Fiscal Year 2007                                                              15                    9
    Fiscal Year 2008                                                               7                    -

    Fiscal Year 2009                                                              -5                  -
                                                                                                      -
    Total future minimum lease payments                                           78                   45
    Less: amounts representing interest                                           12                    6
    Total                                                                         $M                 rn

B. Operating Leases
The Corporation leases office space through the General Services Administration (GSA). GSA charges the
Corporation a Standard Level Users Charge that approximates commercial rental rates for similar properties. NCCC
also leases housing facilities for its campuses. Additionally, the Corporation leases motor vehicles on an annual
basis through GSA under an Interagency Fleet Management Service agreement for the National Civilian Community
Corps. Commitments of the Corporation for future rental payments under operating leases at September 30 are as
follows:


                               Estimated Operating Lease Commitments as of September 30
                                                    (dollars in tlrousands)
                                         2004                                                2003
1     Fiscal     Facilities                                              Facilities
      Year        Space        Vehicles       Other          Total          Space     Vehicles    Other            Total
      2004         $      -      $     -       $     -         $     -         7,070     1,131        172            8,373
      2005             6,408       1,111          196            7,715         7,363     1.162        174            8,699
      2006             6,614       1,15 1         203            7,968         7,668     1,193        176            9,037
      2007             6,827       1,190          21 1           8,228         7,985     1,226        178            9,389
      2008             7,047       1,231          219            8,497         8,3 15     1,261       18 1           9,757
      2009             7,274       1,274          227            8,775              -         -         -               -


    Total          $34.170       !liL2ia       $1.056$41.183$38.401$5.973                                $SSL      $45.255


NOTE 8 - WORKERS' COMPENSA TION
The Corporation's actuarial liability for future workers' compensation benefits (FECA) was $12.4 million and $12.5
million as of September 30, 2004 and 2003, respectively. The amount includes the expected liability for death,
disability, medical, and miscellaneous costs for approved compensation cases. The actuarial liability is determined
using a method that utilizes historical benefit payment patterns related to a specific incurred period to predict the
ultimate payments related to that period. Consistent with past practice, these projected annual benefit payments
have been discounted to present value using the Office of Management and Budget's economic assumptions for 10-
year Treasury notes and bonds.
NOTE 9 - N E T POSITION
The reported net position consists of unexpended appropriations and cumulative results of operations (cumulative
results of operations represents the differences between revenues and expenses since the Corporation's inception).
Component balances are separately maintained for the Gift Fund, Trust Fund and Appropriated Fund.

                                    Net Position by Fund Balance Components
                                               (dollars in thousands)

                                            As of September 30,2004
                                                                                    Appropriated
                                                Gift Fund       Trust Fund             Fund              Total
 Unexpended appropriations                            $    -       $           -        $789,055          $789,055
 Cumulative results of operations                         867          103,551           (19,4 13)          85,005
 Total Net Position                                   $862         $103.551             $769.642         $874.060


                                    Net Position by Fund Balance Components
                                               (dollars in thousands)

                                             As of September 30,2003
                                                                                    Appropriated
                                                Gift Fund       Trust Fund             Fund              Total
 Unexpended appropriations                            $     -          $       -        $665,353          $665,353
 Cumulative results of operations                         650              1,42 1        (19,037)          (16,966)
 Total Net Position                                   $65n             $1.421           $646.316          $648.387

NOTE 10 - APPROPRIA TIONS RECEIVED BY THE TRUST FUND
Fiscal 2004 appropriations received by the Trust Fund were $205.4 million, composed of a $130 million Trust
appropriation (less $767 thousand Trust portion of the rescission to NCSA pursuant to the Miscellaneous
~ p ~ r o ~ r i a t i and
                      o n sOffsets Act of 2004); a $63.1 million deficiency appropriation included in the 2003 Emergency
Wartime Supplemental Appropriation Act (P.L. 108-1 I ) which was received in fiscal 2004; and $13.1 million
transferred from program funds pursuant to the 2004 Consolidated Appropriations Act (P.L. 108-199). The Trust
portion ofthe NCSA rescission was transferred back to NCSA, reducing the net amount of appropriations received
by the Trust Fund during fiscal 2004. Fiscal 2003 appropriations received by the Trust Fund were $99.35 million
($100 million less $650 thousand Trust portion of the rescission to NCSA per Public Law 108-7). The Trust portion
of the NCSA rescissions were transferred back to NCSA, reducing the net amount of appropriations received by the
Trust Fund during each fiscal year.

NOTE I I   -   EXPENSES
Using an appropriate cost accounting methodology, the Corporation's expenses have been allocated among its major
programs:
AmeriCorps is the national service program that annually engages Americans of all ages and backgrounds in full-
time and sustained part-time community service and provides education awards in return for such service.
AmeriCorps includes State, National. Tribes & Territories (Staternational); National Civilian Community Corps
(NCCC); and Volunteers In Service To America (VISTA) programs. The Staternational sub-program includes grant
expenses, as well as direct and allocated personnel and administrative costs including AmeriCorps recruitment and
Trust operations. The NCCC sub-program includes direct and allocated personnel and administrative costs
including AmeriCorps recruitment and Trust operations. The VISTA sub-program includes grant expenses, as well
as direct and allocated personnel and administrative costs including AmeriCorps recruitment and Trust operations.
The National Senior Service Corps (NSSC) is a network of people age 55 and older who participate in the Foster
Grandparent Program (FGP),the Senior Companion Program (SCP), and the Retired and Senior Volunteer
Program (RSVP). These programs tap the experience, skills, talents, and creativity of America's seniors. The
NSSC responsibility segment includes grant expenses, as well as direct and allocated personnel and administrative
costs for RSVP, FGP, and SCP. Costs for each sub-program are reported on separately in the table.
Learn and Serve America supports and promotes service learning in schools, universities, and communities.
Through structured service activities that help meet community needs, nearly one million students improve their
academic learning, develop personal skills, and practice responsible citizenship. The Learn & Serve responsibility
segment includes grant expenses, as well as direct and allocated personnel and administrative costs, for the Learn
and Serve America Program, the President's Student Service Challenge, and National Service Leader Schools. The
President's Freedom Scholarships are a component of the National Service Award expense line item.
Other Program Costs
The National Service Award line item consists of the Corporation's estimated expense for education awards based
on the increase in its service award liability during the year, interest forbearance costs on qualified student loans
during the period members perform community service, as well as disbursements for the Presidential Freedom
Scholarship Program. No indirect costs have been allocated to this line item.
The Corporation's annual appropriation includes various Congressionally Earmarked Grants. In addition, the
Corporation has reimbursable agreements with state agencies whereby the Corporation awards and administers
grants to a list of grantees selected and funded by the State. No indirect costs have been allocated to these grants.
The Office of Inspector General (OIG) receives a separate appropriation. No indirect costs have been allocated to
the OIG.
The largest component of total expense is grant funds expended


                   Components of Grant Funds Expended for the years ended September 30
                                           (dollars in thousands)
                                                                  2004                     2003
 Domestic Volunteer Service Act Programs                              $250,490                $23 1,442
 National and Community Service Act Programs                           213,386                  352,446
 Earmarked Grants
    Congressionally Earmarked Grants                        $17,210                 $26,688
    DVSA State Grants                                         1,202                    1.21 1
 Total Earmarked Grants                                                 18,4 12                  27,899
 Total Grants Expense                                                         $482.288                        $611.787


                  Expenses by Major Responsibility Segment for the years ended September 30
                                                 (dollars in tliousands)
                                                                           2004                          2003
 AmeriCorps
  State, National, Tribes & Territories (Staternational)         $294,255                        $390,99 1
  National Civilian Community Corps (NCCC)                         33,056                          36,640
  Volunteers In Service To America (VISTA)                        127,660                         114,308
    Subtotal                                                                  $454,97 1                       $54 1,939
 National Senior Service Corps
   Retired and Senior Volunteer Program (RSVP)                     66,3 12                         65,090
   Foster Grandparent Program (FGP)                               122,797                         126,378
   Senior Companion Program (SCP)                                $ 5 1,666                       $ 50,087
     Subtotal                                                                     240,775                       24 1,555
 Learn and Serve America                                                           45,155                        7 1,334
 Total Earmarked Grants                                                            18,412                        27,899
 Office of Inspector General (OIG)                                                  5,017                         4,228
 Total Expenses                                                               $764.33n                        $886.955
                                         Expenses by Type and Subprogram for the year ended September 30,2004
                                                                 (dollars in thousands)
                                                  AmeriCorps                 National Senior Service Corps
                                        State1                                                                    Learn &    Earmarked
                                       National     NCCC        VISTA      RSVP          FGP           SCP         Serve      Grants     OK        Total

Grant and Related Expense
Grant funds expended                   $175,981     $      -   $ 28,836    $60,667    $1 13,334       $47,653     $37,405     $18,412    $    -   $482,288
VISTA & NCCC stipends & benefits              -       7,960      62,488           -            -             -          -           -         -     70,448
Service award expense                   89,674        3.382      15,775    --         --                     .-     3,299           -         -    112.130
Total Grant and Related Expense        265,655       1 1,342    107,099     60,667      1 13,334       47,653      40,704      18,4 12        -    664,866

Administrative Expense
Federal employee salaries & benefits
Travel & transportation
Rent, communications, & utilities
Program analysis & evaluation
Printing & reproduction
Other services
Supplies & materials
Depreciation & amortization
Bad debt
Other                                      143         123          26          20           33              9         44                             398
Total Administrative Expense            28,600      21,714      20,561       5,645        9,463          4,013      4,45 1          -    5,017     99,464
Total Expenses by Type
                                                  Expenses by Type for the year ended September 30,2003
                                                                  (dollars in thousands)
                                                  AmeriCorps                   National Senior Service Corps
                                        State/                                                                      Learn &   Earmarked
                 TYP                   National     NCCC           VISTA     RSVP          FGP           SCP         Serve      Grants    OIG         Total

Grant and Related Expense
Grant funds expended                   $270,576     $        -    $ 25,742   $60,482    $ 1 17,698      $46,624     $62,766    $27,899     $    --   $61 1,787
VISTA & NCCC stipends & benefits              -          8,280      58,254          -            -             -          -          -          -      66,534
Service award expense                    87.674          5,6 17     13,392   --
                                                                                         --
                                                                                                        --            2.895           -         -     109,578
Total Grant and Related Expense         358,250         13,897      97,388    60,482      1 17,698       46,624      65,661     27,899          -     787,899

Administrative Expense
Federal employee salaries & benefits
Travel & transportation
Rent, communications, & utilities
Program analysis & evaluation
Printing & reproduction
Other services
Supplies & materials
Depreciation & amortization
Bad debt
Other                                      342         10 1             89       51            8 9 - - . . -35- -        72          -        3       -
                                                                                                                                                      779
Total Administrative Expense            32,741      22,743          16,920    4,608         8,680       3,463         5,673          -    4,228        99,056
Total Expenses by Type                 %390.991%36.640%114308                %65.090%126378%50.087$71334$27.899                           %4328$886.955
NOTE 12 - NA TIONAL SERVICE A WARD EXPENSE
Members participating in the Trust programs are eligible to earn a service award to pay for qualified education
expenses. The Trust also pays interest forbearance costs on qualified student loans during the period members
perform community service. The Corporation estimates the expense for national service awards based on the
increase in its cumulative service award liability during the year (see Note 6). The total service award liability as of
September 30,2004 and 2003, respectively, has been adjusted to reflect the fact that earned awards are not always
used.

                       National Service Award Expense for the years ended September 30
                                            (dollars in thousands)
                                                                                    2004                   2003
    Estimated education awards                                                   $106,245               $104,581
    Estimated interest forbearance                                                   2,586                  2,102
    President's Freedom Scholarship Program                                          3,299                  2,895
    National Service Award Expense                                                      $112.130       $109.578



NOTE 13 - INCREASE/(DECREASE) IN UNEXPENDED APPROPRIATIONS, NET
I
                  Increase/(Decrease) in Unexpended Appropriations, Net as of September 30
                                            (dollars in thousands)
                                                                              2004                       2003
    Increases:
    Appropriations received, net of trust                                        $ 940,9 18            $79 1,205
    Prior year deficiency appropriation                                             63.055                      -

    Total Increases                                                              1,003,973              79 1,205

  Decreases:
  Appropriated capital used, net of trust                                         (644,17 1)           (768,005)
  Appropriations received by trust                                                (205,389)             (99,350)
  Rescinded appropriations, net of trust                                            (5,553)             (53,143)
  Canceled appropriations                                                          (25,158)             (12.733)
, Total Decreases                                                                 (880,27 1)           (933,23 1)
1 Increase/(Decrease) in Unexpended Appropriations, Net                          $123.702             $4l&&a


NOTE 14 - CONTINGENCIES
       Contingencies
The Corporation is a party to various routine administrative proceedings, legal actions, and claims brought by or
against it, including threatened or pending litigation involving labor relations claims, some of which may ultimately
result in settlements or decisions against the Corporation. In the opinion of the Corporation's management and legal
counsel, there are no proceedings, actions, or claims outstanding or threatened that would materially impact the
financial statements of the Corporation.

       Judgment Fund
Certain legal matters to which the Corporation is named a party may be administered and, in some instances,
litigated and paid by other Federal agencies. Generally, amounts paid in excess of $2.5 thousand for Federal Tort
Claims Act settlements or awards pertaining to these litigations are funded from a special appropriation called the
Judgment Fund. Although the ultimate disposition of any potential Judgment Fund proceedings cannot be
determined, management does not expect that any liability or expense that might ensue would be material to the
Corporation's financial statements.
NOTE 15 - RECLASSIFICATION OF EXPENSES
During fiscal 2004 the Corporation began sub-allocating costs within each of its responsibility segments
(AmeriCorps, National Senior Service Corps, and Learn and Serve America) to their major sub-programs. These
immaterial reclassifications were for presentation purposes only and did not change total expenses. However,
administrative costs allocated to each responsibility segment in the fiscal 2003 financial statements were adjusted as
a result of the revised methodology.
                                                                 a u d ~ t o r se adv~sors
 3 3 3 h'OK7tl ~ A I K J A XSTWIT   SLIITT
                                         401   -21 1 Y \UJ,RIA    VIRGINI~ 113 14   703 8 3 6 6701   FA\ 70Z/836/IJi~41 U%& COTTOhCPA COM



Inspector General
Board of Directors
Corporation for National and Comn~unityService


                                          INDEPENDENT
                                                   AUDITORS'REPORTON
                                     INTERNALCONTROL
                                                   OVER FINANCIAL
                                                                REPOR'I-ING


We have audited the financial statements of the Corporation for National and Community Service
(Corporation) as of and for the year ended September 30, 2004, and have issued our report thereon dated
October 29, 2004. We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States.

In planning and perfoming the September 30, 2004, audit, we considered the Corporation's internal
control over financial reporting by obtaining an understanding of the Corporation's internal control,
determining if internal controls had been placed in operation, assessing control risk, and performing tests
of controls to determine our auditing procedures for the purpose of expressing an opinion on the financial
statements. We limited internal control testing to those controls necessary to achieve the objectives
described in Govern~nentAuditing Standarcis. The objective of our audit was not to provide assurance on
the Corporation's internal control. Consequently, we do not provide an opinion on internal control over
financial reporting.

Our consideration of internal control over financial reporting would not necessarily disclose all matters in
the internal control over financial reporting that might be reportable conditions. Under standards issued by
the American Institute of Certified Public Accountants, reportable conditions are matters coming to our
attention relating to significant deficiencies in the design or operation of the internal controls over financial
reporting that, in our judgment, could adversely affect the Corporation's ability to record, process,
summarize, and report financial data consistent with assertions by management in the financial statements.
Material weaknesses are conditions in which the design or operation of one or more of the internal control
components does not reduce, to a relatively low level, the risk that misstatements, in amounts that would
be material in relation to the financial statements being audited, may occur and not be detected within a
timely period by employees in the normal course of performing their assigned functions. Because of
inherent limitations in any internal control, misstatements due to error or fraud may occur and not be
detected.

We noted one matter, described in Exhibit 1, involving internal control over financial reporting and its
operation that we consider to be a reportable condition. We do not consider this reportable condition to be
a material weakness. The status of prior-year reportable conditions is reported in Exhibit 2.

We also noted other matters involving internal control and its operation that we will report to Corporation
management in our management letter, which will be issued as OIG Audit Report 05-02.

We have provided a draft of this report to the Corporation. The Corporation's response to our report is
included as Appendix A.
As required by the Government Corporation Control Act, this report is intended solely for the information
and use of the United States Congress, the President, the Director of the Office of Management and
Budget, the Comptroller General of the United States, the Corporation, and the Inspector General. It is not
intended for, and should not be used by, anyone other than these specified parties.

COTTON & COMPANY LLP



Alan Rosenthal, CPA
Partner


October 29, 2004
Alexandria, Virginia
                                              Exhibit 1
                           Corporation for National and Community Service
                                        Reportable Condition
                                         September 30,2004

Grants Management

The Corporation for National and Community Service (Corporation) awards National and Community
Service Act (NCSA) and Domestic Volunteer Service Act (DVSA) grants to State and local governments,
institutions of higher education, and other nonprofit organizations. The Corporation expends the majority
of its appropriated funds on grants, and grant activities result in the most significant components of the
Corporation's financial statements. It is critical that the Corporation monitor grantee activity closely to
ensure that grantees are complying with applicable laws and regulations related to the administration of
grant awards. Grantees are required to expend funds for allowable costs and to provide periodic reports to
the Corporation to demonstrate programmatic financial compliance with the terms of their respective grant
agreements. As part of its grant monitoring program, the Corporation conducts site visits to ensure that
grantees are complying with their grant agreements, and that State commissions are performing their
prescribed duties.

The following weaknesses were noted in the Corporation's internal control over grants management.

Improvement Needed In Monitoring Grantee Activities

The Corporation has established formal grantee monitoring procedures that include periodic site visits to
grantees; a process for obtaining, reviewing, and issuing management decisions on audit findings reported
by the OIG, as well as by non-federal auditors in OMB Circular A-133 single audit reports; training
conferences for grantee personnel; open lines of communication between program managers and grantees;
and a grant closeout process. For DVSA grants, the Corporation utilizes the Senior Corps Compliance
Monitoring Handbook. For NCSA grants, the State Commission Administrative Standards review is the
primary tool for monitoring State commission grantees. The Corporation also has a separate monitoring
tool for National Direct grantees.

While it was noted that the various program offices have each taken steps to implement the
recommendations discussed in the prior year's internal control report, the Corporation's monitoring
activities require further improvement in order to provide adequate controls over grantee activities. The
prior year's reportable condition noted a number of instances where the Corporation was not adhering to
its own policies. It was not performing site visits and other monitoring efforts on a timely basis, and the
Corporation did not ensure that grantees submitted all required programmatic and fiscal reports on a timely
basis. The recommendations to address these findings included the reevaluation of policies and procedures
for conducting monitoring visits and the implementation of a risk assessment approach to selecting
grantees for monitoring visits.

During the past fiscal year, the program offices have developed and implemented a risk assessment of
grantees. However, of those State commissions and National Direct grantees identified by the risk
assessment process as high risk, the Corporation conducted very few monitoring visits. Further, we
believe that improvements need to be made to the risk assessment process to adequately document both the
criteria used in assessing risk, as well as the steps performed to reach conclusions on the level of risk. This
lack of criteria for performing risk assessments contributed to a number of instances where different
program officers conducted assessments inconsistently. The Senior Corps program officers increased their
site visits substantially by conducting site visits of nearly all grantees during Fiscal Year 2004. However,
there was a lack of adequate documentation as to the scope of testing and specific procedures performed
by Senior Corps program officers in reaching their conclusions.

Recommendations

We recommend that:

                The Corporation's risk assessment should be based on consistently implemented criteria.
                The assessment should include the reasons justifying a risk rating and how the conclusion
                was reached. Documentation to support each risk assessment should be maintained to
                prevent the loss of institutional knowledge.
                After completion of the assessment tool, any further discussion by Corporation
                management, regarding the selection and prioritization of AmeriCorps*State grantees for
                monitoring visits should be adequately documented.
                The Corporation should prioritize monitoring visits based on a risk-based selection
                process, maintain a site visit travel schedule based on risk, and monitor progress made in
                completing these visits.
                The Corporation should develop monitoring policies to document what constitutes an
                acceptable, substantive review of grantees, in lieu of performing site visits. These
                activities include, but are not limited to, desk reviews, technical assistance, training, OIG
                reviews and audits, grantee audits, and other relevant monitoring activities performed by
                grant managers, program offices, the OIG, and external contractors.
        0       The Corporation should improve coordination between grant managers, program offices,
                and the OIG. The Corporation has created a new position of Director of Grants Oversight
                and Monitoring, which should be filled as soon as possible. The Director of Grants
                Oversight and Monitoring should establish consistent policies and procedures across
                Corporation programs and coordinate all monitoring efforts.
                                              Exhibit 2
                             Status of Prior-Year Reportable Conditions
                                         September 30,2004

FY 2003 Finding                    Type                            FY 2004 Status
Monitoring of Grantee Activities   2001 : Reportable Condition     Monitoring of grantee activities
                                   2002: Reportable Condition      continues to be a reportable
                                   2003: Reportable Condition      condition.
                                           auditors advisors



Inspector General
Board of Directors
Corporation for National and Community Service


                             INDEPENDENT
                                      AUDITORS'REPORT
                                                    ON
                           COMPLIANCE
                                   WITH LAWSAND REGULATIONS



We have audited the financial statements of the Corporation for National and Community Service
(Corporation) as of and for the year ended September 30,2004, and have issued our report thereon dated
October 29, 2004. We conducted our audit in accordance with auditing standards generally accepted in
the United States of America and standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States.

As part of obtaining reasonable assurance that the Corporation's financial statements are free of material
misstatement, we performed tests of its compliance with certain provisions of laws and regulations,
noncompliance with which could have a direct and material effect on the determination of financial
statement amounts. Providing an opinion on compliance with those provisions was not, however, an
objective of our audit and, accordingly, we do not express such an opinion. The results of our tests
disclosed no instances of noncompliance that are required to be reported under Government Auditing
Standards.

This audit was performed pursuant to the Government Corporation Control Act, and is intended solely for
the information and use of the United States Congress, the President, the Director of the Office of
Management and Budget, the Comptroller General of the United States, the Corporation, and the
Inspector General. It is not intended for, and should not be used by, anyone other than these specific
parties.


COTTON & COMPANY LLP



Alan Rosenthal, CPA
Partner

October 29, 2004
Alexandria, Virginia
                      APPENDIX A

CORPORATION FOR NATIONAL AND COMMUNITY SERVICE RESPONSE
                                      Coraoration for      -

                                                        November 5, 2004




'1'11~Honorable 1. Russell Georgc
Inspector General
Corporauon for National
   and Commun~tyService
Suttc 830
Washtngton, DC 20525

Dear Alr. George:

        'l'hank you for the opportunity to comment on the draft report on the a u d t of the
Corporation's &a1 2004 financial statements. I am pleased that the Corporation continues to
receive a clean opinion on its financial statements. These results demonstrate the Corporation's
commitment to sound financial management and reflect the result of the hard work bv staff to
improw the Corporauon's operations.

        I am also pleased that the a u d t noted that the Corporauon's program offices have taken
posttlve steps to addrcss prlor a u l t recornrnendatlons including developing and unplemenung a risk
hased approach to grantee monltormg. The fiscal 2004 a u l t makes several recotnmenda~onsto
further improve the monitoring of grantees. The Corporauon agrees wlth these recon~menda~ons
and wlll linplcment them over the course of the next year.

        'l'hc (;orporation is coininitted to improving and strengthening its oversight of grantees. To
orcrsec this effort the Corporation has established a new position, Director of Oversight and
Monitoring. The Director wdl be responsible for coordinating grantee monitoring and oversight
across a11 program streams. In addtion, the Corporation established an Award Oversight and
Monitoring Council comprised of senior staff to ensure that the Corporation exercises uniformly
excellent financial, administrative and programmauc award oversight and supports grantee success
through effective compliance monitoring and training and technical assistance. The initial tasks of
the Council are to assist in the hiring of the new Director and develop the fiscal 2005 oversight and
monitoring plan. These tasks d l be informed by the rccolnmendations in the audit report.

        I mould also hkc to cxpress my appreciation for the efforts that your staff and the staff of
Cotton & Company made on thc fiscal 2004 audt. Without thls collaborative effort me would not
ba\rc bcen able to ac11ic~-cthe expedited deadline for compleung the audit.




                                                        Chlef Executive Officer

                             1201 New York Avenue, NW * Washington, DC 20525
                                   202-606-5000 * wwu..nationalservice.org
                             Senior Corps * AmeriCorps * Learn and Serve America                The President's Call to Service
